THOMAS J. MILLER

1305 E. WALNUT ST.
DES MOINES, IA 50319
Main: 515-281-5164 • Direct: 515-281-4419
Email: Jeffrey.Thompson@ag.iowa.gov
www.iowaattorneygeneral.gov

ATTORNEY GENERAL

JEFFREYS. THOMPSON
SOLICITOR GENERAL

IOWA DEPARTMENT OF JUSTICE
OFFICE OF THE ATIORNEY GENERAL

January 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543

Re:

Craig Eugene Smith v. James McKinney et al.,
S.Ct. No. 20-554

Dear Mr. Harris:
The petition for a writ of certiorari in the above-caption case was filed on October 22, 2020, and the case
was placed on the docket on October 27, 2020. On January 5, 2021, the Court requested a response from
Respondents. That response is due on February 4, 2021.
We respectfully request an extension of time to file our response until Monday, March 8, 2021, pursuant
to Rule 30.4. This extension is requested because of the current workload in our office and to provide
sufficient time to prepare a helpful response for the Court.
Thank you for your consideration.
Sincerely,

~·M~
cc:

Anton Metlitsky
O'Melveny & Myers LLP
Times Square Tower, 7 Times Square
New York, NY 10036
ametlitsky@omm.com
Counsel for Petitioner Craig Eugene Smith

